Report No. DoDIG-2013-037                  January 15, 2013




       Quality Controls for the Rotary Wing Transport
         Contracts Performed in Afghanistan Need
                        Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing at
auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACOR                    Alternate Contracting Officer’s Representative
COR                     Contracting Officer’s Representative
DCMA                    Defense Contract Management Agency
DLA-E                   Defense Logistics Agency - Energy
IDIQ                    Indefinite-Delivery, Indefinite-Quantity
JSC-A                   Joint Sustainment Command-Afghanistan
POC                     Point of Contact
PWS                     Performance Work Statement
QAES                    Quality Assurance Evaluator Schedule
QASP                    Quality Assurance Surveillance Plan
SITREP                  Situational Report
USCENTCOM               United States Central Command
USTRANSCOM              United States Transportation Command
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                 January 15, 2013

MEMORANDUM FOR COMMANDER, U.S. TRANSPORTATION COMMAND

SUBJECT: Quality Controls for the Rotary Wing Transport Contracts Performed in
         Afghanistan Need Improvement (Report No. DoDIG-2013-037)

We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report. Since FY 2009, the U.S .
Transportation Command contracting officials have awarded 10 indefinite-delivery,
indefinite-quantity contracts in support of the Afghanistan Rotary Wing Transport Program. As
of September 2012, the contracting officer issued 28 task orders with an approximate obligated
value of $1.5 billion. Because the U.S. Transportation Command did not establish adequate
surveillance controls for the 28 task orders, there is increased risk that the Government may not
have fully received the services paid for.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The U.S.
Transportation Command's comments were partially responsive and require further comments.
Therefore, we request that the Deputy Commander, U.S. Transportation Command, provide
additional comments on Recommendations C, D, E, F(2), (3), (4) by February 15, 2013.

If possible, send a Microsoft Word document (.doc) file and portable document format (.pdf) file
containing your comments to audacm@dodig.mil. Copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct,questions to me at
(703) 604-9077 (DSN 664-9077).
  Report No. DoDIG-2013-037 (Project No. D2012-D000AS-0031.000)           January 15, 2013


                Results in Brief: Quality Controls for the
                Rotary Wing Transport Contracts Performed
                in Afghanistan Need Improvement
                                                        stated that this occurred because she
What We Did                                             unintentionally omitted the required
We determined whether United States                     surveillance elements from the QASPs. As a
Transportation Command (USTRANSCOM)                     result, the contracting officer did not perform
contracting officials had adequate controls             oversight to verify whether the CORs
over the contracts for transportation of                performed effective contract surveillance, and
supplies, mail, and passengers in Afghanistan.          did not have QASP requirements established
This is the first in a series of audits for these       for CORs to verify that contractors complied
contracts. Since FY 2009, USTRANSCOM                    with contractual requirements for transport
contracting officials awarded                           services worth approximately $1.5 billion as
10 indefinite-delivery, indefinite-quantity             of September 2012. The inadequate controls
contracts in support of the Afghanistan Rotary          increased the risk that the Government would
Wing Program. As of September 2012, the                 pay for services not rendered.
contracting officer issued 28 task orders with
an approximate obligated value of                       What We Recommend
$1.5 billion, and a total approximate value of          We recommend that the contracting officer
$3.5 billion, if all options are exercised.             require CORs to provide their surveillance
                                                        files to the contracting officer when
What We Found                                           completing their tours of duty; assess the
USTRANSCOM did not establish adequate                   adequacy of surveillance measures used by the
surveillance controls for the 28 task orders            CORs in Afghanistan; create and implement
supporting the transportation of supplies, mail,        standard operating procedures to establish the
and passengers in Afghanistan. Specifically,            methodology for monitoring and validating
the USTRANSCOM contracting officer did                  fuel purchases; update and revise the QASPs
not perform periodic reviews of the                     to include all contract terms requiring
Contracting Officer’s Representative (COR)              surveillance and the method of surveillance;
files or request the COR files be sent to her           and perform a resource analysis to determine
when the CORs completed their tours of duty.            the number of CORs needed in Afghanistan.
The contracting officer stated that she did not
perform the reviews or request the COR files            Management Comments and
because the COR file documentation was                  Our Response
located in an austere location, and she wanted          The USTRANSCOM Deputy Commander
to leave the documentation on site to maintain          agreed with our recommendations; however
continuity among the COR rotations. The                 some were partially responsive. Specifically,
COR files are located in Afghanistan.                   the Deputy Commander should provide her
Additionally, the contracting officer did not           plans of actions and milestone dates of
establish effective surveillance elements and           completion to improve surveillance and
methodologies necessary for CORs to                     oversight of contracted goods and services.
determine that services met contract                    We request that the Deputy Commander
requirements when she developed quality                 provide additional comments in response to
assurance surveillance plans (QASPs) for each           this report by February 15, 2013. Please see
of the 10 contracts. The contracting officer            the recommendations table on page ii.
                                                    i
Report No. DoDIG-2013-037 (Project No. D2012-D000AS-0031.000)    January 15, 2013


Recommendations Table


         Management                    Recommendations           No Additional Comments
                                      Requiring Comment                 Required
Deputy Commander, U.S.                 c, d, e, f(2), (3), (4)        a, b, f (1), (5)
Transportation Command

Please provide comments by February 15, 2013.




                                              ii
Table of Contents

Introduction                                                                   1

       Objective                                                              1
       Background                                                             1
             Afghanistan Rotary Wing Transport Contracts                      1
             Contract Surveillance Structure                                  1
       Review of Internal Controls                                            2

Finding. Oversight of Contracting Officer’s Representative Surveillance
of Afghanistan Rotary Wing Transport Contracts Needs Improvement               3

      The Contracting Officer Did Not Verify That the Contracting Officer’s
             Representative Surveillance Was Performed                         3
      Quality Assurance Surveillance Plans Lacked Specific Surveillance
             Requirements and Methodologies                                    6
      Conclusion                                                              10
      Recommendations, Management Comments, and Our Response                  11


Appendixes

       A. Scope and Methodology                                               15
             Use of Computer-Processed Data                                   15
             Prior Coverage                                                   16
       B. Contracting Officer’s Representative File Reviews Performed by
             External Agencies                                                17


Management Comments

       U.S. Transportation Command                                            18
Introduction
Objective
The audit objective was to determine whether United States Transportation Command
(USTRANSCOM) contracting officials had adequate controls over contracts for the
transportation of supplies, mail, and passengers in Afghanistan. This is the first in a series of
audit reports relating to Afghanistan rotary wing transport contracts. The second audit will
determine whether USTRANSCOM and United States Central Command (USCENTCOM)
officials implemented adequate oversight processes and procedures for the contracts. See
Appendix A for a discussion of our scope and methodology.

Background
USTRANSCOM was established in 1987 and is the single manager of the U.S. global defense
transportation system. USTRANSCOM coordinates people and transportation assets to allow the
United States to project and sustain forces, when and where they are needed, for as long as
necessary. USTRANSCOM also coordinates missions worldwide using both military and
commercial sea, air, and land transportation resources in response to DoD’s war fighting
commanders’ needs across the full spectrum of support, ranging from humanitarian operations to
military contingencies.

Afghanistan Rotary Wing Transport Contracts
Since FY 2009, USTRANSCOM contracting officials awarded 10 indefinite-delivery,
indefinite-quantity (IDIQ) contracts in support of the Afghanistan Rotary Wing Transport
Program. USCENTCOM is the requiring activity and program management office for these
10 IDIQ contracts. The contractors provide medium, heavy, and super heavy lift helicopters to
support rotary wing transport of supplies, U.S. mail, and passengers throughout Afghanistan. 1
The Afghanistan Rotary Wing Transport Program IDIQ contracts have a potential ceiling value
of $5.6 billion. As of September 2012, the contracting officer had issued 28 task orders under
the 10 IDIQ contracts. These 28 task orders have a combined obligated value of approximately
$1.5 billion, and a total approximate value of $3.5 billion, if all options are exercised. The
periods of performance for the IDIQ contracts end in October 2015.

Contract Surveillance Structure
According to USTRANSCOM Instruction 63-5, “Contracting Officer’s Representative
Program,” the requiring activity is responsible for nominating a sufficient number of qualified
Contracting Officer’s Representatives (CORs), with a minimum of one primary and one alternate
COR (ACOR) for each contract. The contracting officer then reviews the training and
qualifications of the nominated CORs before appointing them in writing.




1
 According to the performance work statement, work is performed at Jalalabad Airfield; Kahandar Airfield; Bagram
Airfield; Sharana Airfield; Mazar-I-Sharif; Shindand; Salerno Airfield; Forward Operating Base (FOB) Shank; FOB
Tarin Kwot; FOB Wolverine; and Herat. See Figure 1 for a map of Afghanistan.

                                                       1
USCENTCOM established the current oversight structure with one COR and two ACORs to
perform oversight of the 10 IDIQ contracts located throughout Afghanistan. The COR and
ACORs historically have performed 9 to12 month tours of duty in Afghanistan. The Army
Expeditionary Sustainment Command nominated CORs to perform the quality assurance
surveillance on these contracts, and the USTRANSCOM contracting officer reviewed and
approved the COR nominations.

                                 Figure 1. Map of Afghanistan




                                         Source: www.af.mil



Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29, 2010,
requires DoD organizations to implement a comprehensive system of internal controls that
provide reasonable assurance that programs are operating as intended, and to evaluate the
effectiveness of these controls. We identified internal control weaknesses in the oversight of the
Afghanistan Rotary Wing Transport Program. Specifically, the USTRANSCOM contracting
officer omitted required surveillance elements in the quality assurance surveillance plans
(QASPs) and did not request or review the COR files to verify that adequate contract
surveillance was being performed by the CORs. We will provide a copy of the report to the
USTRANSCOM senior official(s) responsible for internal controls.




                                                 2
Finding. Oversight of Contracting Officer’s
Representative Surveillance of Afghanistan
Rotary Wing Transport Contracts
Needs Improvement
USTRANSCOM contracting officials did not establish adequate surveillance controls for 28 task
orders issued under 10 IDIQ contracts. The contracts supported rotary wing transport of
supplies, mail, and passengers in Afghanistan. Specifically, the contracting officer did not:

       •   perform periodic reviews of the CORs’ files or require the CORs to send their files back
           to the USTRANSCOM contracting office when the CORs completed their tours of duty
           in Afghanistan. The contracting officer stated that this occurred because the
           documentation was located in an austere location 2, and she would not request the COR
           files until contract completion in order to maintain continuity among the COR rotations;
           and

       •   develop comprehensive QASPs for the 10 contracts that established effective surveillance
           requirements and methodologies, such as requirements for monitoring aircraft availability
           and contractors’ fuel purchases, necessary for CORs to determine whether services
           received conformed to contract requirements. The contracting officer stated that this
           occurred because she unintentionally omitted required QASP elements for monitoring the
           Afghanistan Rotary Wing Transport Program contracts.

As a result, the contracting officer did not know whether CORs performed effective oversight
and did not have assurance through COR surveillance that contractors complied with contractual
requirements for transport services valued at $1.5 billion 3 as of September 2012. The inadequate
controls increased the risk that the Government would pay for services not rendered.

The Contracting Officer Did Not Verify That COR Surveillance
Was Performed
Although the contracting officer appropriately appointed CORs with required training, she did
not require the CORs to send her copies of their COR files when terminating their COR duties.
USTRANSCOM Instruction 63-5, “Contracting Officer’s Representative Program,” states that
the COR’s records are part of the official post-award contract files and must be forwarded to the
contracting officer with the official contract file when completing the contract or terminating the
COR appointment. The contracts are not scheduled to be completed until 2015; however,
because of constant rotation, five CORs have completed their tours of duty over the last 3 years.
None of the CORs forwarded their files to the contracting officer when their duties were
terminated. The contracting officer stated that she does not require the CORs to forward the
COR files to her until after contract expiration because the information in the COR files would


2
    The COR files are located in Afghanistan
3
    The 28 task orders have a combined total approximate value of $3.5 billion if all options are exercised.

                                                            3
be beneficial to incoming CORs to maintain continuity. However, the contracting officer, as
required by USTRANSCOM Instruction 63-5, should have requested copies of the COR files
from the CORs when they completed their tours of duty. The contracting officer should comply
with USTRANSCOM Instruction 63-5 and require the CORs to send a copy of their files to her
when completing their tours of duty in Afghanistan. In addition, the contracting officer should
periodically require the CORs to provide their COR files to her, to verify the adequacy of COR
surveillance and support for certification of services paid.

Because the contracting officer did not receive the COR files after COR terminations and did not
perform periodic reviews of the COR files, she did not have sufficient information to make a
determination that CORs were performing the required surveillance. USTRANSCOM
Instruction 63-5 states that the contracting officer, or designee, “will periodically conduct
random sampling inspections of their COR files each year.” USTRANSCOM Instruction 63-5
also states that this should be done in person for locally appointed CORs, but when the COR is
located outside of the local area, COR files may be copied and forwarded to the contracting
officer for inspection. However, instead of performing periodic reviews of the COR files as
required, the contracting officer had the Defense Contract Management Agency (DCMA)
perform reviews beginning in August 2011 (see Appendix B) 4 almost 3 years after the first IDIQ
contracts were awarded. The contracting officer stated that she did not conduct periodic reviews
of the COR files because the documentation was located in an austere location. The COR files
are located in Afghanistan. Subsequently, in April 2012, as this audit progressed, the contracting
officer entered into a formal agreement with DCMA to conduct biannual reviews of the COR
files.

The Contracting Officer Relied on Contractor-Provided Reports
The contracting officer relied on contractor-provided reports to verify contractor performance.
Specifically, the contracting officer reviewed situation reports (SITREPs) and sortie reports that
the contractors provided and the CORs reviewed. The SITREP tracked the status of each
contractor’s aircraft, including the crew on the ground
and the availability of the aircraft. The sortie report         The previous COR stated that
listed the flight hours that the contractors flew for each      he used an Aviation Resource
aircraft per day, including the number of missions flown           Management Assessment
and the type of cargo transported. According to the               checklist when performing
contracting officer, each aircraft was contracted to fly an       surveillance; however, the
estimated 150 hours per month. However, because the               contracting officer was not
contracting officer did not review the COR files, the             aware of this checklist, and
contracting officer had no assurance that the CORs                 had not approved its use.
followed QASP surveillance requirements and
methodologies when reviewing and verifying the SITREP and sortie reports. The previous COR
stated that he did not completely rely on the QASP, because in his opinion, the QASP was
tailored to assess commercial plane operations rather than the type of helicopter operations that
were used in Afghanistan. As a result, the previous COR stated that he created and implemented


4
 In December 2010, the Joint Sustainment Command-Afghanistan (JSC-A) performed a self-initiated review of the
COR files. (see Appendix B)

                                                      4
his own surveillance measures to validate the contractor’s compliance with the performance
objectives of the contract. Specifically, the previous COR stated that he used an Aviation
Resource Management Assessment checklist when performing surveillance; however, the
contracting officer was not aware of this checklist, and had not approved its use. Neither the
contracting officer nor the COR could provide the audit team with copies of the COR file.
Therefore, the contracting officer did not have documentation to support that the surveillance
methods used by the previous COR adhered to QASP requirements. Accordingly, the
contracting officer should assess the adequacy of the surveillance measures used by the CORs in
Afghanistan that supplement the QASPs. In addition, the contracting officer should update and
modify the QASPs to include the surveillance structure currently in place if those surveillance
measures provide a better verification that the contractor is conforming to all contract
requirements.

USTRANSCOM is at risk of overpaying the contractors for transportation of supplies, mail, and
passengers in Afghanistan. For example, the contracts specified a monthly service rate for
aircraft ranging from $396,577 to $1,372,581 according to the type of aircraft used to perform
the mission. USTRANSCOM is not required to pay the contractors the full monthly service rate
when they cannot meet the 80 percent aircraft availability requirement during the month. In
addition, the contracts included blade hour rates ranging from $1,900 to $8,521 per hour for an
estimated 150 hours per helicopter each month. However, the QASPs did not contain adequate
surveillance methods for CORs to validate that the contractors had met these contract conditions.
As a result, USTRANSCOM had reduced assurance that they received the services they paid for
every month.

Resource Analysis Needed to Determine Optimum
Surveillance Structure
One COR and two ACORs were not sufficient to perform contract oversight and surveillance
over rotary wing contracts at 10 separate locations throughout Afghanistan. The
USTRANSCOM contracting officer stated that USCENTCOM, as the requiring activity,
established the surveillance structure for the rotary wing contracts. The USTRANSCOM
contracting officer stated that USTRANSCOM Instruction 63-5 provided the requirement for a
minimum of one COR and one ACOR, and that USCENTCOM nominates one COR and
one ACOR every 9 to 12 months. In June 2012, the contracting officer appointed one COR and
two ACORs to perform contract surveillance for the 10 rotary wing contracts. However,
                                   recognizing the shortage of oversight personnel, the contracting
     The contracting officer       officer encouraged the COR and ACORs to solicit the
     appointed 1 COR and 2         assistance of points of contact (POCs) at each contract location
  ACORS to perform contract to help with contract oversight duties. According to the
     surveillance for the 10       contracting officer, each COR had the option of either formally
      rotary wing contracts.       appointing the POCs as official ACORs, or not. The
                                   contracting officer also stated that previous CORs established
different contract oversight structures, with some formally designating POCs while other CORs
did not. Without sufficient designated personnel qualified to monitor the rotary wing contracts,
the contracting officer had limited assurance that the contractors were performing services in
accordance with contract terms and conditions. USTRANSCOM, working with USCENTCOM,
should perform a resource analysis to determine the optimum number of personnel and the

                                                 5
surveillance structure necessary to oversee the performance of these contracts. USCENTCOM
has to identify the resources available and the contracting officer must designate qualified
personnel to make sure that rotary wing transport contractors are performing efficiently and
effectively.

Quality Assurance Surveillance Plans Lacked Specific
Surveillance Requirements and Methodologies
The contracting officer developed 10 QASPs that did not establish specific surveillance
requirements and methodologies for verifying whether each contractor’s performance met the
terms and conditions of the 28 task orders issued under the 10 IDIQ contracts. These QASPs
also contained incorrect or nonexistent references to sections of the performance work statements
(PWSs). The contracting officer stated that she unintentionally omitted required contract
elements in the QASPs and included the incorrect references to the PWSs.

Contractors’ Performance Was Potentially Not Verified
Through Surveillance
The contracting officer developed 10 QASPs that did not incorporate all the terms of the PWS.
                                        Federal Acquisition Regulation (FAR) Subpart 46.4,
   The contracting officer stated       “Government Contract Quality Assurance,” states that
  that she unintentionally omitted      Government contract quality assurance shall be performed
   required contract elements in        at all times and places as may be necessary to determine
    the QASPs and included the          that supplies or services conform to contract requirements.
     incorrect references to the        FAR Subpart 46.4 further states that QASPs should be
               PWSs.                    prepared in conjunction with the statement of work 5 and
                                        should specify all work requiring surveillance, and the
method of surveillance. The contracting officer did not include requirements for surveillance of
contractor security clearances, aircraft availability, and fuel purchases in the QASPs that she
developed for the 28 task orders.

Security Clearance Requirements
None of the 10 QASPs contained specific requirements for the COR to validate that aircrews and
site managers employed by the contractors had secret security clearances. The PWSs required
contractor personnel to possess secret security clearances in order to conduct passenger transport
operations. The PWSs also required the contractors to provide the COR with a list of the names
of all contractor personnel and their associated security clearances at the COR’s request. The
contracting officer stated that she did not include this requirement in the QASPs because she did
not consider this requirement to be a surveillance item. She also stated that USTRANSCOM
verified the secret clearances of contracted employees before they were deployed to Afghanistan.

However, the previous COR stated that he did have a list of cleared contractor personnel and that
the contractors would notify him or notify the USTRANSCOM contracting officer if an


5
  According to FAR Subpart 2.1 “Definitions,” a PWS is a statement of work for performance-based acquisitions
that describes the required results in clear, specific and objective terms with measurable outcomes.

                                                       6
employee’s status changed. The CORs should not have relied solely on the contractor to provide
information on changes to an employee’s status. The CORs should have independently validated
that contractor employees had the required security clearances to perform the missions. The
CORs’ independent validation would reduce the risk that contractors are performing
unauthorized duties. The contracting officer should update the QASPs to include requirements
to validate that all aircrews and site managers performing under the contracts have the correct
security clearances.

Aircraft Availability Requirements
Three of the ten QASPs did not include a requirement for the COR to validate that the
contractors’ aircraft were available 80 percent of the month as required by the PWSs.
USTRANSCOM Instruction 63-7, “USTRANSCOM Acquisition Management,” states that the
Service Delivery Summary outlines the expected service objectives (outcomes) and identifies the
metrics tracked to determine whether the outcomes are achieved at the appropriate levels of
performance. According to the Service Delivery
Summary established in the rotary wing contracts’ PWS,                 Without the PWS
the contractors were required to make sure that aircraft          requirements  in the QASP,
were available 80 percent of the month for missions. The         there was limited assurance
contracting officer stated that she unintentionally omitted       that new CORs or ACORs
the required Afghanistan Rotary Wing Transport Program          were correctly validating that
PWSs requirements from the QASPs. Although the                    aircraft were available 80
contracting officer required the CORs to review the                percent of the month for
SITREPs to verify that contractors correctly reported their                missions.
aircrafts’ availability, she did not review the COR files to
verify whether the CORs completed any of the necessary surveillance for aircraft mission
availability. Furthermore, with the continuous turnover of CORs and ACORs, incomplete
QASPs increased the risk that adequate surveillance would not be performed on the contracts.
Without the PWS requirements in the QASP, there was limited assurance that new CORs or
ACORs were correctly validating that aircraft were available 80 percent of the month for
missions. As a result of our audit, the contracting officer updated the QASPs in July 2012 to
include the requirement for CORs to validate that aircraft were available 80 percent of the month
for missions.

Fuel Monitoring Requirements
The contracting officer had not implemented adequate accountability controls for fuel purchases
before the audit. Specifically, all 10 QASPs did not include provisions for CORs to monitor fuel
purchased by the contractors, even though aircraft fuel is a cost reimbursable item on the
contracts. FAR subpart 16.301-3 “Limitations,” states that a cost-reimbursement contract may
be used only when appropriate Government surveillance is being performed to provide
reasonable assurance that efficient methods and effective cost controls are used. Prior DoD
Inspector General investigations 6 identified the lack of oversight, surveillance, and
accountability of fuel purchases in contingency environments as a high risk area. Those
investigations found that DoD employees participated in conspiracy and fraud schemes to steal


6
    These DoD Inspector General investigative reports were released between April 2008 and August 2009.

                                                         7
fuel and sell the stolen fuel to unauthorized sources. Neither the QASPs nor the Afghanistan
Rotary Wing Transportation Surveillance Activity Checklist attached to the QASPs included
specific guidance for CORs to verify the delivery of fuel purchases by the contractors, or that the
fuel was used only for contract mission requirements. According to the contracting officer, the
Defense Logistics Agency – Energy (DLA-E) 7 tracks fuel reimbursement by aircraft tail number
and USTRANSCOM contracting officials review the DLA-E invoices and the contractors’ proof
of payment before reimbursing costs. The QASPs stated that the COR would verify fuel
expenses before acceptance by the contracting officer on a monthly basis. However, the
contracting officer relied on DLA-E verification of fuel purchases, had limited oversight of the
contractors’ use of fuel, and did not include a methodology and standard operating procedures
for USTRANSCOM contracting officials to monitor fuel purchases. As a result of our audit, the
contracting officer updated the QASPs in July 2012 to redirect the responsibility of validating
fuel purchases from the COR to USTRANSCOM contracting officials. However, the language
in the updated QASP still does not clarify the methodology that USTRANSCOM contracting
officials would follow to validate contractor fuel purchases. The contracting officer should
create and implement Standard Operating Procedures to establish the methodology that
USTRANSCOM contracting officials must follow to monitor and validate that contractors’ fuel
purchases are used only for contract mission requirements.

Effective and Systematic Monitoring of Contractors’ Performance
Needs Improvement
The contracting officer developed 10 QASPs that did not establish effective and systematic
methods for CORs to monitor and determine whether the contractors complied with the technical
requirements in the contract. FAR Subpart 46.4 states that the QASP should specify the method
of surveillance, and USTRANSCOM Instruction 63-7 states that the QASP must include the
methodology the Government will use to accomplish contract surveillance to identify whether
performance thresholds are being met. Common examples of surveillance methods are
100 percent inspections, periodic inspections, and customer input. According to the
USTRANSCOM Instruction 63-7, the QASP should also include any action the Government
could take if the contractor does not perform at an acceptable level. Therefore, the QASPs
should have established the Government’s evaluation methods and included how the COR’s
quality assurance surveillance actions would be documented.

The 10 QASPs included examples of surveillance methods that the COR could use; however, the
QASPs did not specify which of the surveillance methods should be used for specific contract
performance requirements. The surveillance methods specified in the QASPs were 100 percent
inspections, periodic surveillance, and customer complaints; however, the QASPs did not specify
the requirements in the PWSs that would be:

        •   subject to 100 percent inspections. The QASPs stated that 100 percent inspection is
            inspecting a PWS requirement every time it occurs, but the QASPs did not specify
            which performance requirements the COR needed to inspect 100 percent of the time.


7
 Before 2010, DLA-E was known as the Defense Energy Support Center. DLA-E’s mission is to effectively and
economically provide DoD and other governmental agencies with comprehensive energy support.

                                                     8
           The COR stated that it would not be realistic to expect a COR to perform
           100 percent inspection for any contract requirement;

       •   evaluated through periodic surveillance. The QASPs stated that periodic surveillance
           is based on selecting samples for evaluation on other than 100 percent inspection, or
           on a random basis to determine contractors’ compliance to contract requirements.
           The QASPs list weekly inspections as an example of periodic surveillance, but the
           QASPs did not provide a schedule or list of performance requirements that the COR
           must evaluate through periodic surveillance; and

       •   evaluated through customer complaints or how the COR would validate customer
           complaints received. The QASPs stated that the CORs would fully validate and
           document customer complaints, and include them as a permanent part of the COR
           surveillance records. The QASPs did not include a methodology for the COR to
           validate customer complaints such as the type of information that the COR should
           collect from the customers or how complaints should be addressed. Additionally, the
           QASPs did not specify when the COR should notify the contracting officer of the
           complaints or how the COR should document the actions taken to make sure that the
           complaints were fully addressed and used to evaluate contractor performance.

As a result of our audit, the contracting officer updated the QASPs in July 2012 to include the
performance objectives in the Service Delivery Summary that would be subject to surveillance
methods. Those methods included 100 percent inspections, periodic surveillance, and customer
complaints. However, the contracting officer did not
update the QASPs to include surveillance methods for            The contracting officer did not
PWS requirements such as security clearance                       update the QASPs to include
requirements, fuel purchase monitoring requirements, or         . . . critical PWS requirements
other critical PWS requirements necessary to make sure            necessary to make sure that
that the contractors met their performance objectives.              the contractors met their
Furthermore, the updated QASPs included customer                     performance objectives.
complaints as a method of surveillance that the COR
should use to make sure that the contractors restricted unauthorized personnel or cargo from the
aircraft. However, a customer complaint is not a sufficient surveillance method to measure
whether unauthorized personnel or cargo is on board an aircraft, because these performance
objectives are too critical for a passive method of surveillance.

The QASPs included a requirement for the CORs to develop a monthly Quality Assurance
Evaluator Schedule (QAES) but did not specify areas or activities that the CORs must schedule
for observation during the month. According to the QASP, the QAES should be broken into
weekly segments and must include information such as the contract number, evaluation period,
and columns for the areas that the COR would observe. Although the QASPs provided a general
format and parameters for the content of the QAES, the QASPs did not specify areas or activities
to be observed, or the specific intervals in which the CORs must conduct their observations.
According to the previous COR, because both he and the ACORs moved around Afghanistan
frequently, a monthly schedule did not work. One of the ACORs stated that additional full-time
personnel would have been needed to perform such administrative tasks to create the necessary

                                                9
paperwork. The contracting officer should update and revise the QASPs to identify all critical
PWS requirements that are subject to surveillance methods such as 100 percent inspections,
periodic surveillance, and customer complaints; how the COR will validate the customer
complaints received; and which areas or activities must be observed for the required monthly
Quality Assurance Evaluator Schedule. In addition, the contracting officer should review the
surveillance methods listed in the Service Delivery Summary table in the QASP, identify
sufficient methods for the COR to monitor contractors’ performance, and revise the Service
Delivery Summary table to include these methods.

PWS Requirements Were Not Correctly Referenced in the QASPs
The contracting officer developed 10 QASPs that referenced either incorrect or nonexistent
sections of the PWSs. According to USTRANSCOM Instruction 63-7, the QASP is a
companion document to the PWS that formally documents the procedures the Government will
use to verify that it is getting the goods and services paid for. USTRANSCOM Instruction 63-7
requires that the QASP include a description of the performance objectives and thresholds
                                         identified in the PWS. However, the QASPs and the
  The QASPs and the surveillance
                                         surveillance checklist attached to the QASPs sometimes
   checklist attached to the QASPs
                                         referenced incorrect or nonexistent sections of the PWSs or
   sometimes referenced incorrect
                                         did not reference all surveillance requirements. For
     or nonexistent section of the
                                         example, the surveillance checklist attached to the QASP
    PWSs or did not reference all
                                         included a requirement for aircraft to maintain a
      surveillance requirements.         serviceable cargo hook to conduct operations; however, the
                                         surveillance checklist referenced the wrong section of the
PWS. There is a risk that the CORs and ACORs were not verifying that contractors conformed
to all critical PWS requirements because the CORs and ACORs were unaware of these
requirements. As a result of our audit, the contracting officer updated the QASPs in July 2012 to
reflect the correct PWS references.

Conclusion
The USTRANSCOM contracting officer did not establish adequate surveillance controls for the
Afghanistan Rotary Wing Transport Program contracts. The contracting officer did not perform
periodic reviews of the CORs’ files or review the files when each COR completed a tour of duty.
She stated that she unintentionally omitted surveillance requirements and methodologies from
the QASPs. As a result, the contracting officer did not know whether the CORs were meeting
the surveillance needs of the contract and could not confirm that consistent oversight was in
place for future CORs. Consequently, the contracting officer had limited assurance that
contractors under the Afghanistan Rotary Wing Transport Program task orders adequately
performed or that DoD fully received contracted transport services valued at approximately
$1.1 billion.




                                                10
Recommendations, Management Comments, and Our
Response
We recommend that the U.S. Transportation Command contracting officer:

     a. Require the Contracting Officer’s Representatives to send copies of their files
        back to the contracting officer when completing their tours of duty in accordance
        with U.S. Transportation Command Instruction 63-5, “Contracting Officer’s
        Representative Program.” In addition, the contracting officer should require the
        Contracting Officer’s Representatives to provide their files to her, to verify the
        adequacy of surveillance performed.

Management Comments
The Deputy Commander, U.S. Transportation Command, agreed with our recommendation,
stating that the contracting officer will request a copy of the Contracting Officer’s Representative
files to be sent electronically or via hard copy format to the U.S. Transportation Command
contracting office. The Deputy Commander stated that the U.S. Transportation Command will
request a copy of the Contracting Officer’s Representative files from the current Contracting
Officer’s Representative, who will be transferring out of Afghanistan in January 2013.

Our Response
Comments from the Deputy Commander, U.S. Transportation Command, were responsive and
the proposed actions met the intent of the recommendation. No further comments are required.

     b. Assess the surveillance measures used by the Contracting Officer’s
        Representatives in Afghanistan to determine the adequacy of their methodologies
        for assuring that contractors deliver quality services. Based on the assessment,
        update the Quality Assurance Surveillance Plan as needed to describe the effective
        and approved surveillance methodologies for use by the Contracting Officer’s
        Representatives.

Management Comments
The Deputy Commander, U.S. Transportation Command, agreed, stating that the U.S.
Transportation Command will coordinate with the U.S. Central Command and the Joint
Sustainment Command-Afghanistan to determine revisions to the Quality Assurance
Surveillance Plan as needed.

Our Response
Comments from the Deputy Commander, U.S. Transportation Command, were responsive and
the proposed actions met the intent of the recommendation. No further comments are required.

     c. Perform a resource analysis to determine the number of Contracting Officer’s
        Representatives that the U.S. Transportation Command will need in order to


                                                11
         perform adequate contract surveillance in Afghanistan and request that the U.S.
         Central Command provide additional Contracting Officer’s Representatives and
         Alternate Contracting Officer’s Representatives for the program.

Management Comments
The Deputy Commander, U.S. Transportation Command, agreed, stating that in July 2012, the
U.S. Central Command submitted a request for Forces to the Joint Staff in response to the need
for additional resources to optimize contract surveillance. The Deputy Commander stated that
the U.S. Central Command’s request was halted because a more efficient solution was identified.
In addition, the Deputy Commander stated that three additional aviation personnel will be added
to the next set of Contracting Officer’s Representatives deploying to Afghanistan.


Our Response
Comments from the Deputy Commander, U.S. Transportation Command, were partially
responsive. Although the U.S. Central Command submitted a request for Forces to the Joint
Staff and plans to add three additional personnel to the next rotation of Contracting Officer’s
Representatives, the Deputy Commander did not provide the details of her plans of action and
the effective milestone date for completion. In addition, the Deputy Commander did not indicate
whether there will be a permanent increase in aviation personnel to aid in contract surveillance.
We request that the Deputy Commander provide additional comments in response to the final
report.

     d. Create and implement Standard Operating Procedures to establish the
        methodology for monitoring and validating that contractors’ fuel purchases are
        used only for mission requirements.

Management Comments
The Deputy Commander, U.S. Transportation Command, agreed, stating that the U.S.
Transportation Command will consult with the Defense Logistics Agency Fuel Liaison Officer to
analyze the feasibility of implementing our recommendation. The Deputy Commander stated
that the time frame for implementing our recommendation will be developed after the feasibility
determination.

Our Response
Comments from the Deputy Commander, U.S. Transportation Command, were partially
responsive. The Deputy Commander agreed with our recommendation; however, she was unable
to provide specific action items on how our recommendation would be implemented. We
request that the Deputy Commander should consult with the Defense Logistics Agency Fuel
Liaison Officer and provide additional comments in response to the final report. The Deputy
Commander should provide the implementation of actions that will answer the recommendation.

     e. Review the surveillance methods listed in the Service Delivery Summary table in
        the Quality Assurance Surveillance Plans, identify sufficient methods for the
        Contracting Officer’s Representatives to monitor contractors’ performance, and
        revise the Service Delivery Summary table to include these methods.

                                               12
Management Comments
The Deputy Commander, U.S. Transportation Command, agreed, stating that the contracting
officer reviewed the surveillance methods listed in the Service Delivery Summary table in the
Quality Assurance Surveillance Plans, and revised the Quality Assurance Surveillance Plans in
July 2012 to include methods for the Contracting Officer’s Representatives to monitor
contractors’ performance. In addition, the Deputy Commander stated that the U.S.
Transportation Command will coordinate with the U.S. Central Command and the Joint
Sustainment Command-Afghanistan to determine whether further revisions to the Quality
Assurance Surveillance Plans are needed.


Our Response
Comments from the Deputy Commander, U.S. Transportation Command, were partially
responsive. The Deputy Commander agreed with our recommendation stating that the
contracting officer reviewed the surveillance methods and revised the Quality Assurance
Surveillance Plan in July 2012. However, the July 2012 updated Quality Assurance Surveillance
Plans did not include methods that will determine whether services conform to contract
requirements in the Service Delivery Summary table as required by the Federal Acquisition
Regulation. Specifically, the July 2012 updated Quality Assurance Surveillance Plans listed
“customer complaints” as a method of surveillance for contractor performance in areas such as
airspace de-confliction, aircraft cargo hook readiness, and unauthorized personnel or cargo.
However, using customer complaints as a surveillance method will not provide enough
information to determine whether the terms and conditions of the contract are being met. For
instance, the number of customer complaints received cannot be used to determine whether
aircraft have 80 percent cargo hook readiness, a contract condition that directly affects the
amount that the contractor will be paid. We request that the Deputy Commander develop a more
effective method of surveillance than using customer complaints, and provide a completion date
for implementing our recommendation. We request the Deputy Commander provide these
comments in response to the final report.

     f. Update and revise the Quality Assurance Surveillance Plans to include all contract
        terms requiring surveillance and the method of surveillance in accordance with
        the Federal Acquisition Regulation Subpart 46.4, “Government Contract Quality
        Assurance.” Specifically, the Quality Assurance Surveillance Plans should:
           (1) include the requirement to validate that all aircrews and site managers
               performing under the contracts have the correct security clearances,
           (2) identify all performance work statement requirements subject to
               100 percent inspections,
           (3) identify all performance work statement requirements subject to periodic
               surveillance,
           (4) identify all performance work statement requirements subject to customer
               complaints, and the methodology to validate customer complaints, and
           (5) identify which areas or activities must be observed for the required
               monthly Quality Assurance Evaluator Schedule.




                                              13
Management Comments
The Deputy Commander, U.S. Transportation Command, agreed with our recommendations,
stating that the U.S. Transportation Command validates security clearances before issuing
Common Access Cards and Letters of Authorization to contractor employees before the
employees’ deployment. The Deputy Commander stated that the U.S. Transportation Command
will provide a validated list of employees with security clearances to the Contracting Officer’s
Representative, and will make sure that contractor company representatives and the Contracting
Officer’s Representatives are immediately notified if an employee’s security clearance is
revoked or rescinded. The Deputy Commander also stated that the contracting officer will revise
the Quality Assurance Surveillance Plans to reflect our recommendation, and coordinate with the
U.S. Central Command and the Joint Sustainment Command-Afghanistan to determine whether
further revisions to the Quality Assurance Surveillance Plans are necessary. The Deputy
Commander also agreed with our recommendations, stating that the contracting officer updated
the Quality Assurance Surveillance Plans in July 2012 to identify all performance work
statement requirements subject to 100 percent inspections, periodic surveillance, customer
complaints, and the methodology used to validate customer complaints. The Deputy
Commander also stated that the U.S. Transportation Command will update the Quality
Assurance Surveillance Plans to identify the areas or activities that must be observed for the
required monthly Quality Assurance Evaluator Schedule.

Our Response
Comments from the Deputy Commander, U.S. Transportation Command, were responsive to
recommendations f(1) and f(5) and the proposed actions met the intent of the recommendations.
No further comments are required. Comments from the Deputy Commander were partially
responsive to recommendations f(2), f(3), and f(4). The Deputy Commander agreed with our
recommendations, stating that that the contracting officer updated the Quality Assurance
Surveillance Plans in July 2012 to identify performance work statement requirements subject to
100 percent inspections, periodic surveillance, customer complaints, and the methodology used
to validate customer complaints. However, the July 2012 updated Quality Assurance
Surveillance Plans did not include all the performance work statement requirements that will be
subject to 100 percent inspections, periodic surveillance, customer complaints. Specifically, the
July 2012 updated Quality Assurance Surveillance Plans did not include the method of
surveillance for performance work statement requirements such as security clearances, fuel
purchase monitoring, and other critical performance work statement requirements. In addition,
the July 2012 updated Quality Assurance Surveillance Plans did not include the specific
methodology for validating customer complaints. We request that the Deputy Commander
provide additional comments in response to the final report, and provide a completion date for
implementing our recommendation.




                                               14
Appendix A. Scope and Methodology
We conducted this performance audit from November 2011 through January 2013 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence we obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We reviewed relevant sections of the FAR and USTRANSCOM guidance to determine the
criteria specific to our audit objective. We reviewed 28 task orders that were issued under the
10 IDIQ contracts to support the Afghanistan Rotary Wing Transport Program. The 10 IDIQ
contracts issued from December 2008 through April 2011 are:
    • HTC711-09-D-0021
    • HTC711-09-D-0022
    • HTC711-09-D-0023
    • HTC711-10-D-R025
    • HTC711-10-D-R026
    • HTC711-10-D-R027
    • HTC711-10-D-R028
    • HTC711-11-D-R021
    • HTC711-11-D-R022
    • HTC711-11-D-R023

We reviewed the contracts and task orders to gain an understanding of the Afghanistan Rotary
Wing Transport Program and to determine whether USTRANSCOM officials conducted
adequate oversight and management of the task orders. We also reviewed COR appointment
letters and training packages to determine whether CORs were properly appointed and trained.
We reviewed QASPs and other surveillance documentation to determine whether the contracting
officer developed the QASPs in accordance with Federal, DoD, and agency regulations.

We conducted a site visit to USTRANSCOM at Scott Air Force Base in Illinois. We interviewed
USTRANSCOM contracting officers and contracting specialists; and conducted telephone
interviews with CORs and ACORs assigned to Joint Sustainment Command-Afghanistan
(JSC-A).

The contracting officer did not provide us with copies of the COR files for review because she
did not maintain copies of the files located in Afghanistan.

Use of Computer-Processed Data
We relied on computer-processed data from the DoD Electronic Document Access website. The
DoD Electronic Document Access is a web-based system that provides secure online access,
storage and retrieval contracts and contract modifications to authorized users through DoD. We
retrieved contracts and contract modification documents from the DoD Electronic Document
Access. We also obtained contract documentation during our site visit to USTRANSCOM,


                                                15
which we compared to the information that we obtained from Electronic Document Access to
verify the accuracy Electronic Document Access contract values. We concluded that data
collected from the DoD Electronic Document Access database was sufficiently reliable for the
purpose of identifying the IDIQ contracts awarded for rotary wing transport in Afghanistan.

Prior Coverage
No prior coverage has been conducted on whether U.S. Transportation Command officials are
properly managing and administering the Afghanistan Rotary Wing Transport Program contracts
during the last 5 years.




                                              16
Appendix B. Contracting Officer’s
Representative File Reviews Performed by
External Agencies
The JSC-A and DCMA performed reviews of the COR files for the rotary wing transport
contracts in December 2010 and August 2011 respectively. The JSC-A and DCMA reports
contained recommendations to the USTRANSCOM contracting office based on the reviews of
the COR files located in Afghanistan.

The JSC-A reviewed the COR files for seven IDIQ contracts to determine whether the appointed
COR performed his contract oversight duties and properly inspected and accepted services for
the Government. The JSC-A reported that the COR performed surveillance in accordance with
the QASPs and that the COR files contained all required reports. However, the JSC-A report
recommended that a copy of the surveillance activity checklist and documentation pertaining to
the COR’s acceptance of performance for services be maintained in the COR file.

DCMA reviewed the COR files for IDIQ contracts to determine whether USTRANSCOM was in
compliance with guidance in the USTRANSCOM Instruction 63-5 “Contracting Officer’s
Representative Program.” DCMA reported that the COR files did not contain the QASP.
DCMA further reported that while the COR had the necessary aviation experience, the Alternate
CORs (ACORs) lacked the necessary aviation background to perform contract monitoring.
According to DCMA’s observations, the lack of competent surveillance could pose a high risk to
the Government, and could also negatively affect mission success and the safety of aircraft
personnel. DCMA also reported that the COR’s workload extended beyond the capabilities of
the COR and the ACORs because of the vast areas of responsibility and the large number of
customers to be accommodated. According to the DCMA review, the COR and his team
required additional personnel throughout Afghanistan. DCMA recommended that
USTRANSCOM should seriously consider the COR’s requests and concerns for additional
qualified personnel.




                                              17
U.S. Transportation Command Comments





                     UNITED STATES TRANSPORTATION COMMAND
                                                 508 SCOlT Dft!VI:
                                   SCOTT AI.. FOftC.E BA$ ~ h.LINO lS 6u..u.a357



                                                                                   6 Noveaber 2012

      MEMORA DUM FOR DEPARTMENT OF DEFE SE INSPECTOR GENERAL

      FROM: TCDC

      SUBJECT: DODIG Draft Report, "Quality Controls for the Rotary Wing Transport
               Contracts Performed in Afghanistan eed Improvement," dated September 28,
               2012, (Proj ect No. D20 12-DOOOAS-0031.000)

      I. United Stales Transportation Command (USTRA SCOM) has reviewed the draft report and
      provides the responses contained in the attachment.




                                                ~EN~Y'~~   Lieutenant General, U. S. Army
                                                           Deputy Commander


      Attachment:
      USTRANSCOM Responses

      cc:
      USTRAI\'SCOM!fCAQ




                                                                          18
U.S. Transportation Command Comments





      Recommendations

      We recommend that the U.S. Transportation Command contracting officer:

      a. Require the Contracting Officer 's Re presentatives to send copies of their files back to the
      contracting officer upon completion of their tours of duty in accordance with U.S.
      Tra nsporta tion Comma nd Instr uction 63-5, "Contracting Officer's Representa tive
      Program ." In addition, the cont racting officer should require the Contracting Officer's
      Representatives to provide their files to her, to verify the adequacy of surveillance
      performed.

      Response: Concur. The Contracting Officer will request a copy of the Contracting Officer's
      Representative (COR) files be sent. either electronically (i.e. CORT Tool) or by hard copy to the
      USTRANSCOM contract administration office. Request will be made to the current COR, who
      will transition out of theater Jan 2013.

      b. Assess the surveilla nce measures used by the Contracting Officer's Representatives in
      Afghanista n to determine the adequacy of their methodologies for assuring that
      contractors deliver quality services. Based on the assessme nt, upda te the Quality Assurance
      Surveillance Plan as needed to d escribe the effective a nd a pproved surveillance
      methodologies for use by the Contracting Officer's Representatives.

      Response: Concur. USTRANSCOM will coordinate with CENTCOM!Joint Sustainment
      Command-Afghanistan (JSC-A) to determine QASP revisions. as appropriate. QASP revisions
      will be completed by I Feb 2013 a~ required.

      c. Perform a r esource a nalysis to determine the number of Contracting Officer 's
      Representatives that the U.S. T r ansportation Comma nd will need in order to p erform
      adequate contract s urveillance in Afgha nista n a nd r eq uest th at the U.S. Central Comma nd
      provide additional Contracting Officer 's Representatives a nd Alternate Contracting
      Officer's Re presentatives for the program.

      Response: Concur. In July 20 12, in response to the need fo r additional resources to optimize
      surveillance. U.S. Central Command submitted a request for Forces to the Joint Staff. This
      action was halted, however, since a more efficient solution was identified. The next deploying
      Expeditionary Sustainment Command (Feb/Mar 13) will modify their Force Tracking Number
      (FTN) to account for three additional aviation personnel to add to the commercial aircraft
      management team. Request this item be closed.

      d. C reate and implement Standard Operating P rocedures to esta blish the methodology for
      monitoring and validating that contractors' fuel purchases are only used for mission
      requirements.

      Response: Concur. USTRA SCOM will consult with Defense Logistics Agency (DLA) Fuel
      Liaison Officer to analyze the feasibility of implementing recommendation. Time frame for
      implementing will be developed after feasibili ty determination.




                                                                   19
U.S. Transportation Command Comments





     c. Review the surveillance methods listed in the Service Delivery Summary table in the
     Quality Assurance Surveillance Pla ns, identify sufficient methods for the Contracting
     Officer's Representatives to monitor contractors' performance. and revise the Service
     Delivery Summary table to include these methods.

     Response: Concur. Review was accomplished and QASP was revised in July 2012.
     USTRANSCOM will coordinate with CENTCOM/JSC-A to determine if further QASP revisions
     are needed. QASP revisions will be completed by I Feb 2013 as required.

     f. Update and revise the Quality Assurance Surveillance Plans to include all contract terms
     requiring surveillance and the method of surveillance in accordance with the federal
     Acquisition Regulation S ubpart 46.4, " Government Contract Quality Assurance."
     Specifically, the Quality Assurance Surveillance Plans should :

      (1) include the requirement to validate that all aircrews and site managers performing
      under the contracts have the correct security clearances,

     Response: Concur. USTRANSCOM validates security clearances prior to Common Access
     Card (CAC)fLetter of Authorization (LOA) issuance at time of employee deployment and
     exercising the contract option(s). USTRA 'SCOM will provide the validated list to the COR. If
     a security clearance is revoked or rescinded for any reason. USTRANSCOM will ensure the
     company representatives and COR are notified immediately. This revision to the QASP will be
     completed by I Feb 2013 and USTRANSCOM will coordinate with CE 'TCOM/JSC-A to
     dete rmine if further QASP revisions are needed fo r this and each of the remaining
     recommendations.

      (2) identify all performance work statement requirements subject to 100 percent
      inspections,

      Response: Concur. USTRANSCOM July 2012 QASP was revised to identify all performance
      work statement requirements subject to 100 percent inspections.

      (3) identify all performance work statement requirements subject to periodic surveillance,

      Response: Concur. USTRANSCOM July 2012 QASP was revised to identify performance
      work statement requirements subject to periodic surveillance.

     (4) identify all performance work statement requirements subject to customer complaints,
     and the methodology to validate customer complaints, and

      Response: Concur. USTRANSCOM July 2012 QASP was revised to accomplished and
      identi fy all performance work statement requirements subject to customer complaints and the
      methodology used to validate customer complaints.

     (5) identify which areas or activities must be observed for the required monthly Quality
     Assurance Evaluator Schedule.




                                                                   20
U.S. Transportation Command Comments





       Response: Concur. USTRANSCOM will identify which areas or activities must be observed
       for the required monthly Quality Assurance Evaluator Schedule to be completed by 1 Feb 20 13.




=




                                                                21
